No. 19-1057

In the

Supreme Court of the United States
_____________________

LORI RODRIGUEZ, et al.,
Petitioners,
v.
CITY OF SAN JOSE, et al.,
Respondents.

_____________________

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit

_______________________

BRIEF IN OPPOSITION

________________________
RICHARD DOYLE
NORA FRIMANN
MATTHEW PRITCHARD
(Counsel of Record)
Office of the City Attorney
200 East Santa Clara Street
16th Floor
San José, CA 95113-1905
(408) 535-1900
cao.main@sanjoseca.gov
Counsel for Respondents
June 2020

QUESTIONS PRESENTED
1. In a unanimous decision “particularly limited to
the circumstances” before it, the Ninth Circuit held
that police officers constitutionally seized weapons
without a warrant in conjunction with their
detention of a man in the midst of a dangerous
mental health crisis. The question presented is
whether the court erred in finding the urgent nature
of the situation justified the immediate weapons
seizure under the community-caretaking rubric of the
Fourth Amendment.
2. Whether the Ninth Circuit erred in applying
California law on issue preclusion to bar Rodriguez’s
Second Amendment claim, where Rodriguez fully
litigated that claim in two state courts and where
both courts issued final decisions rejecting the claim
on its merits.
3. Whether this Court should review or stay this
case based on Second Amendment concerns even
though the Ninth Circuit did not decide a Second
Amendment question.

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED........................................ i
TABLE OF CONTENTS ............................................ ii
TABLE OF AUTHORITIES ...................................... iv
INTRODUCTION ....................................................... 1
STATEMENT OF THE CASE ................................... 4
I.

Factual background ............................................ 4

II.

Section 8102 forfeiture proceedings in
California state court ......................................... 6

III. Proceedings in federal court ............................... 9
REASONS FOR DENYING THE PETITION ......... 13
I.

II.

The Ninth Circuit’s narrow and factbound decision correctly applies Fourth
Amendment principles and presents no
issue for certiorari ............................................ 13
A.

Petitioners’ disagreement with the
Ninth Circuit’s application of
unchallenged legal principles does
not warrant certiorari .............................. 15

B.

The Ninth Circuit’s decision does not
conflict with California Supreme
Court precedent and is consistent
with every case to decide a similar
issue .......................................................... 19

The Ninth Circuit correctly applied
California preclusion law to foreclose
Petitioners from raising the same Second
Amendment claim for the third time ............... 23

iii
III. This case involves no Second Amendment
issue for the Court to review ............................ 32
CONCLUSION ......................................................... 35
SUPPLEMENTAL APPENDIX
Transcript of Proceedings in the Superior
Court of the State of California in and for the
County of Santa Clara
(August 9, 2013)....................................... Supp. App. 1

iv
TABLE OF AUTHORITIES
Cases
Bennis v. Michigan,
516 U.S. 442 (1996) ............................................... 33
Boag v. MacDougall,
454 U.S. 364 (1982) ............................................... 16
Cady v. Dombrowski,
413 U.S. 433 (1973) ....................................... passim
Caniglia v. Strom,
953 F.3d 112 (1st Cir. 2020) ......................... 1, 2, 21
Clements v. Airport Auth. of Washoe Cty.,
69 F.3d 321 (9th Cir. 1995) ................................... 25
Corrigan v. District of Columbia,
841 F.3d 1022 (D.C. Cir. 2016) ............................. 20
Haywood v. Drown,
556 U.S. 729 (2009) ............................................... 31
Heck v. Humphrey,
512 U.S. 477 (1994) ............................................... 31
Huffman v. Pursue, Ltd.,
420 U.S. 592 (1975) ............................................... 31
Knick v. Township of Scott,
139 S. Ct. 2162 (2019) ........................................... 30

v
Magnum Imp. Co. v. Coty,
262 U.S. 159 (1923) ............................................... 16
Mora v. City of Gaithersburg,
519 F.3d 216 (4th Cir. 2008) ....................... 2, 21, 22
New York State Rifle & Pistol Ass’n v. City of New
York, 140 S. Ct. 1525 (2020) ................................. 34
Ohio Civil Rights Comm’n v. Dayton Christian
Sch., Inc., 477 U.S. 619 (1986).............................. 31
Panzella v. Sposato,
813 F.3d (2d Cir. 2017) ........................................ 33
People v. One Ruger .22-Caliber Pistol,
84 Cal. App. 4th 310 (Cal. Ct. App. 2000) ............ 30
People v. Ovieda,
7 Cal. 5th. 1034 (Cal. 2019) .................. 2, 19, 20, 21
United States v. Erickson,
991 F.2d 529 (9th Cir. 1993) ........................... 17, 20
United States v. Sineneng-Smith,
140 S. Ct. 1575 (2020) ........................................... 26
Younger v. Harris,
401 U.S. 37 (1971) ................................................. 31
Federal Statutes
28 U.S.C. § 1257 (1988) ............................................ 31

vi
State Statutes
Cal. Penal Code § 33800 (2012) ............................... 29
Cal. Penal Code § 33850 (2019) ....................... passim
Cal. Penal Code § 33855 (2019) ............................... 28
Cal. Penal Code § 33865 (2019) ............................... 29
Cal. Penal Code § 33870 (2019) ............................... 29
Cal. Welf. & Inst. Code § 5150 (2019) .......... 4, 5, 6, 11
Cal. Welf. & Inst. Code § 8102 (2013) .............. passim
Rules
S. Ct. R. 10 ................................................................ 16

1
INTRODUCTION
Petitioners seek review based on two of the Ninth
Circuit’s holdings below. The first is a fact-bound
application of unchallenged Fourth Amendment
principles. The second is a straightforward
application of California issue preclusion law. Both
holdings are correct and consistent with all other
apposite authority.
1. On the Fourth Amendment issue, the Ninth
Circuit held that police officers constitutionally
seized firearms without a warrant in conjunction
with their detention of a man in the midst of a
mental health crisis. The man officers detained—
Petitioner Rodriguez’s husband, Edward—had been
ranting about “shooting up schools” and attempted to
break his own thumb in front of officers. The officers
concluded that it would be dangerous for Edward to
access weapons, and they did not know when he
might return from the hospital following his mental
health evaluation, so they promptly removed several
guns from the Rodriguez household.
Observing that its decision was “particularly
limited to the circumstances” before it, the Ninth
Circuit unanimously upheld the seizure on the
grounds that it was necessary to serve an urgent
public safety purpose. Pet. App. A31. The court’s
holding is in accord with Cady v. Dombrowski, 413
U.S. 433 (1973), and with the only two other
decisions to deal with the analogous circumstance of
a warrantless weapons seizure in conjunction with a
mental health detention, both of which uphold the
seizure on identical reasoning. See Caniglia v. Strom,

2
953 F.3d 112 (1st Cir. 2020); Mora v. City of
Gaithersburg, 519 F.3d 216, 219 (4th Cir. 2008).
Petitioners do not challenge the Ninth Circuit’s
statement of Fourth Amendment law. They disagree
only with the court’s application of that law to the
facts. Pointing out that Edward was on his way to the
hospital at the precise moment officers seized the
weapons, Petitioners argue that the situation lacked
the requisite urgency. That argument is misplaced—
given the danger Edward presented and the
possibility that he might soon return home to access
the guns, the court’s finding of urgency was sound. In
any event, this Court is not a forum of error
correction, so Petitioners’ disagreement on the facts
does not warrant certiorari.
The Ninth Circuit’s Fourth Amendment holding
does not conflict with that of the California Supreme
Court in People v. Ovieda, 7 Cal. 5th. 1034 (Cal.
2019), as Petitioners argue. The state court there
held that police were required to get a warrant before
searching a home because there was no pressing
exigency to justify the search. That holding says
nothing at all about whether the Fourth Amendment
permits a warrantless weapons seizure where there
is a pressing public safety need, as the Ninth Circuit
held here. Far from presenting a conflict with the
decision below, Ovieda merely states its corollary.
2. The Ninth Circuit also correctly precluded
Rodriguez from bringing a Second Amendment claim
she had already twice litigated unsuccessfully in
state court. Petitioners’ attack on the court’s
preclusion holding grossly distorts both the Ninth
Circuit’s decision and the holdings of the California
state courts. Petitioners assert that the state courts

3
did not order forfeiture of Rodriguez’s firearms and
did not reach the merits of her Second Amendment
claim. Both assertions are false. The entire point of
Rodriguez’s intervention in the state forfeiture
proceeding was for her to press her Second
Amendment claim in resisting forfeiture. The trial
court found no Second Amendment violation and
ordered the weapons forfeited, and the state
appellate court affirmed that forfeiture order while
expressly rejecting Rodriguez’s Second Amendment
claim on its merits.
In holding that Rodriguez was barred from
pressing her Second Amendment claim yet a third
time in federal court, the Ninth Circuit did not, as
Petitioners assert, purport to balance Rodriguez’s
Second Amendment rights or any other substantive
right. Rather, the court simply held that comity
concerns counseled in favor of excusing Respondents’
technical waiver of the issue-preclusion defense.
3. Petitioners’ overarching theory that the Ninth
Circuit’s straightforward preclusion and Fourth
Amendment holdings were in fact the fruits of a
secret plot to overthrow the Second Amendment has
no basis in reality. This case involves no Second
Amendment holding, and the Ninth Circuit’s decision
does not show hostility to the Second Amendment or
gun owners. It shows the opposite. For in the end,
Petitioners’ argument amounts to the borderlinefrivolous claim that an otherwise lawful government
forfeiture violates the Second Amendment every time
the property forfeited consists of a gun. But a
forfeiture no more violates the Second Amendment
because the property forfeited is a gun than it
violates the First Amendment because the property

4
forfeited is a copy of Shakespeare’s Hamlet. The City
of San Jose acted pursuant to a valid statute—a
statute Petitioners do not challenge—in securing
forfeiture of Rodriguez’s firearms, and the procedures
accompanying that forfeiture complied with due
process. The forfeiture was thus constitutional, and
the Ninth Circuit’s decision to apply basic preclusion
principles rather than make new Second Amendment
precedent unfavorable to gun owners belies
Petitioners’ cartoonish portrait of a rogue court
singularly bent on abrogating gun rights.
The Ninth Circuit correctly decided the two issues
properly before it, and its decision created no circuit
or other split. There is no basis for certiorari.
STATEMENT OF THE CASE
I. Factual background
1. In 2013, Lori Rodriguez (the principal Petitioner
here) called the San Jose Police Department (“SJPD”)
to report that her husband, Edward, was in the midst
of a mental health episode in the couple’s shared
home. Pet. App. A3, C2. This was not the first such
call to police—SJPD had been to the home for similar
reasons more than once in the past. Id. at A3. When
officers arrived, Edward was ranting about the CIA,
the army, and people watching him. He also
mentioned “shooting up schools” and his “safe full of
guns.” Id. While officers were talking to him, Edward
attempted to break his own thumb. Id.
The SJPD officers on scene concluded that Edward
was a danger to himself or others on account of a

5
significant mental disturbance, so they detained him
under California Welfare & Institutions Code § 5150.
Id. That statute permits police officers to detain a
person for a mental health evaluation when they
have probable cause to believe the person is a danger
to himself or others. Cal. Welf. & Inst. Code § 5150(a)
(2019). A detention under § 5150 does not cause a
person to be admitted or otherwise held at a hospital.
The statute simply authorizes police officers to take
initial custody of the person, after which the person
must be evaluated within 72 hours to determine
whether involuntary hospital admission is necessary.
Id. Thus, the officers who detained Edward during
his crisis did not know when he would return from
his mental health evaluation. See Pet. App. A30.
2. A separate law, California Welfare and
Institutions Code § 8102, requires a police officer who
detains a person for mental health reasons to take
custody of any gun or other deadly weapon in the
detained person’s possession, custody, or control. Cal.
Welf. & Inst. Code § 8102(a) (2013) (“Whenever a
person” detained for mental health reasons “is found
to own, have in his or her position or under his or her
control, any firearm [or] deadly weapon,” the weapon
“shall be confiscated . . . .”). Police officers seized
twelve such guns from the Rodriguez home after
Rodriguez permitted them to enter and opened a safe
for them. Pet. App. A4. Although all the guns were in
Edward’s possession, custody, or control, Rodriguez
likely had at least a community property interest in
all of them, and one was registered in Rodriguez’s
name. Id.

6
II. Section 8102 forfeiture proceedings in
California state court
1. California Welfare and Institutions Code § 8102
further directs police officers who have confiscated
weapons in conjunction with a § 5150 detention to
store the weapons for safekeeping. Cal. Welf. & Inst.
Code § 8102(b). The relevant law enforcement agency
(or City of which it is a part) may then petition the
state superior court to order partial forfeiture of the
weapons on the grounds that returning them would
create a danger to the detained person or someone
else. Id. at § 8102(c). If the agency proves that return
of the weapons would indeed be dangerous, the
superior court grants the forfeiture petition, and the
weapons remain in the custody of the law
enforcement agency for a defined period. Id. at
§ 8102(h). The owner of the weapons may arrange for
them to be sold or transferred during this retention
period, but the § 8102 forfeiture order permanently
eliminates the owner’s right to possession of the
weapons. Id. If the owner fails to arrange a transfer
or sale in time, the weapons may be destroyed. Id.
2. In early 2013, the City of San Jose petitioned for
forfeiture under § 8102 as to the guns officers seized
from the Rodriguez home. Pet. App. A5. After a
hearing in which Rodriguez intervened and
participated on her own behalf, the superior court
granted the City’s petition. Id. The court found that
return of the 12 guns to the Rodriguez household
would create a danger to Edward, Rodriguez, and to
public safety generally. Id. at A5–A6. The court noted
the prior disturbance calls to the home and expressed

7
concern that
Edward—a
large man—might
overpower Rodriguez even if she attempted to keep
the weapons out of his control. Id. at A5, E7. So while
acknowledging that nothing would prevent Rodriguez
from purchasing other weapons, the court found that
public safety would be best served by eliminating the
“low-hanging fruit” immediate return of the existing
weapons would present to Edward. Id. at A5–A6. The
court also rejected Rodriguez’s argument that
forfeiture would violate her Second Amendment
rights. Id. The court thus ordered the weapons
forfeited. 1 Id.

Petitioners frame the superior court’s order as merely
requiring the City “to retain the firearms” pending some
“further resolution or disposition.” Pet. 4. This is misleading.
The court’s order was, as § 8102 contemplates and the City
requested in its petition, one of forfeiture. It permanently
extinguished Rodriguez’s right to possess the weapons, leaving
her only the power to direct their transfer and sale. See Cal.
Welf. & Inst. Code § 8102(h) (providing that a law enforcement
agency “may destroy” any firearm following a judicial finding of
danger unless the previous owner arranges for its transfer or
sale). The judgment reflecting the court’s forfeiture order
included a sentence providing that the City agreed to “hold the
weapons pending final disposition or resolution of this matter in
according with its general practices,” Pet. App. E7, but that
language was to convey that the City would not moot any
appeal by destroying the weapons while the appeal was
pending. This followed Rodriguez’s request at the § 8102
hearing for a stay of forfeiture pending appeal, which the court
denied on the basis that the City was already required to retain
the weapons without destroying them under § 8102(h), and to
which the City responded by assuring the court that it would
not (“in accordance with its general practices”) destroy the
weapons until Rodriguez completed the appellate process. Id.;
see also Ninth Circuit Excerpts of Record (“ER”) 74–77
1

8
3. Rodriguez sought review in the state court of
appeal, and the appellate court affirmed the
forfeiture order. As in the superior court, Rodriguez’s
“chief contention” on appeal was that forfeiture of her
weapons violated the Second Amendment. Pet. App.
E14. The appellate court rejected that constitutional
claim. The forfeiture order did not impair Rodriguez’s
ability to purchase or possess weapons generally, the
court noted, and there is no “Second Amendment
right to . . . any particular firearms or firearms that
have been confiscated from a mentally ill person.” Id.
at E15–E16.
In a passage Petitioners have mischaracterized
before both the Ninth Circuit and this Court, the
appellate court concluded its decision by considering
the question whether California Penal Code § 33850
et seq.—a statute that prescribes the procedures a
law enforcement agency must follow before releasing
weapons to a person otherwise legal entitled to
possess them—affected Rodriguez’s claim. Pet. App.
E17. The court held that Rodriguez failed to show
that § 33850 et seq. supported her constitutional
argument, both because Rodriguez had “not sought
return” of the confiscated firearms following
compliance with the statute and because she had not
met her burden of showing that she would be unable
to do so. Id. at E20. The court cited this failure to
take the preliminary steps for the return of a firearm
as an additional, ancillary reason why Rodriguez’s
Second Amendment claim failed. Id. The court

[transcript of § 8102 proceeding],
Supplemental Appendix 2–5.

provided

herewith

as

9
consequently affirmed the superior court’s forfeiture
order. Id. at E21.
III. Proceedings in federal court
1. Rodriguez did not seek further review of the
state appellate court’s decision affirming forfeiture of
her weapons. Id. at A7. Instead, she joined with the
Second Amendment Foundation and Calguns
Foundation (co-Petitioners here) to file a lawsuit in
federal district court. Petitioners again argued that
the forfeiture violated the Second Amendment. Id.
Petitioners also claimed for the first time that the
initial seizure of Rodriguez’s weapons violated the
Fourth Amendment. Id. The district court rejected
both claims (along with a miscellany of others) and
dismissed Petitioners’ suit on summary judgment. Id.
at A7–A8. Petitioners appealed.
2. The Ninth Circuit unanimously affirmed the
district court’s dismissal. Starting with the Second
Amendment claim, the court noted that the
“California state courts [had] addressed” and rejected
the “claim at both the trial and appellate stages.” Id.
at A8. The court thus held that “[f]or reasons of
comity,” it would “apply issue preclusion to bar []
reconsideration of [Petitioners’] Second Amendment
claim” a third time. Id.
The court considered whether to apply broader
claim preclusion under California law to bar
Petitioners’ Fourth Amendment claim as well, but
declined. The defendants did not raise a preclusion
defense before the district court, so the Ninth Circuit
determined whether it would overlook that waiver

10
“by balancing the public and private interests” at
stake. Id. at A10. That “balancing in large part”
depended on “the type of preclusion at stake,” and
the court was more likely to forgive waiver of issue
preclusion than claim preclusion. Id. Whereas
applying waiver to issue preclusion could create
inconsistent judicial holdings and thus breed
“corrosive disrespect,” waiver under claim preclusion
would have no such inimical effect. Id. at A10–A11.
Thus, “[g]iven the significant public interests in
avoiding a result inconsistent [with the California
courts] on an important constitutional question and
in not wasting judicial resources on issues that have
already been decided by two levels of state courts,”
the court concluded that it would forgive the
defendants’ waiver as to issue preclusion but not
claim preclusion. Id. at A11, A23.
Applying California law on issue preclusion, the
court concluded that Rodriguez’s Second Amendment
claim was barred. Rodriguez had fully litigated the
issue in both state courts below, and those courts
issued final decisions rejecting the Second
Amendment claim on its merits. Id. at A11–A13. The
Ninth Circuit specifically considered Petitioners’
argument that Rodriguez’s compliance with
California Penal Code § 33850 et seq. changed the
circumstances so as to avoid the preclusive effect of
the prior state judgment. Id. at A13. The court
rejected the argument. The provisions of § 33850 et
seq.
simply
state
procedural
requirements
accompanying the release of a gun from law
enforcement custody, so that statute could not have
informed the state appellate court’s Second
Amendment holding. Id. at A15–A16. Rather, the

11
court noted, the state appellate court discussed
§ 33850 only as necessary to demonstrate that
Rodriguez’s compliance with that “administrative
procedure was not necessary to” its Second
Amendment holding. Id.
3. Turning to the Fourth Amendment, the Ninth
Circuit began by observing that the question before it
was limited to whether officers validly seized
weapons in conjunction with Edward’s § 5150
detention. Id. at A23. It was so limited because
Rodriguez “ha[d] not challenged any search,” and in
fact “emphasized that ‘there was not a search’” in her
briefing. Id. 2
The court concluded that the officers’ seizure of
weapons was reasonable under the circumstances.
Reviewing precedent from in and out of the Ninth
Circuit, the court held that police officers may
constitutionally seize weapons without a warrant in
conjunction with a detention for mental health
reasons when they do so in response to “an
immediate threat to community safety.” Pet. App.
A26–27. To court balanced three factors in making
this determination: “(1) the public safety interest;
(2) the urgency of that public interest; and (3) the
individual property, liberty, and privacy interests.”
Id.

Petitioners’ framing of the Fourth Amendment question
presented as one involving “premises to be searched and items
then seized” is thus misleading. Pet. i. The briefing of proposed
amici curiae commits the same error. Am. Br. 7 (“This case
shows how the Ninth Circuit has distorted Fourth Amendment
jurisprudence when a warrantless search and seizure relates to
firearms.”).
2

12
The court acknowledged Rodriguez’s “serious
private interest” in her “personal property kept in the
home.” Id. at A29. At the same time, police officers
had been to the Rodriguez residence to deal with
Edward’s mental health issues before, and Edward’s
ranting about the army and “shooting up schools” in
conjunction with attempted self-harm gave police
good reason to be “concerned by the prospect that
Edward [might have] access to a firearm in the near
future.” Id. at A29–30. The court thus concluded that
there were significant public safety and individual
interests at stake, which meant that “the urgency of
the public safety interest [was] the key consideration
in deciding” reasonableness. Id. at A30.
The court found that, on balance, there was
sufficient “urgency [in] the situation” officers faced
when detaining Edward to justify the seizure. Id.
This was because the “officers had no idea when
Edward might return from the hospital” following his
mental-health detention. Id. He “could have returned
to the home at any time—making it uncertain”
whether Edward would again gain access to the
weapons if officers were required to forego seizing
them for the time necessary to get a warrant. Id. The
court was not persuaded by Rodriguez’s argument
that she could lock the guns away and change the
safe combination, as it “was reasonable to believe
that Edward, who weighed 400 pounds, could have
overpowered her to gain access to the guns.” Id. The
court also dismissed Rodriguez’s assertion during
oral argument that the officers could have quickly
obtained a telephonic warrant because there was no
basis in the record for the assertion. Id. at A31.
The court concluded:

13
Our holding that the warrantless seizure . . . did
not violate the Fourth Amendment is limited to
the particular circumstances here: officers have
probable cause to detain involuntarily an
individual [for mental health reasons], they
expected the individual would have access to
firearms and present a serious public safety
threat if he returned to the home, and they did
not know how quickly the individual might
return.
Id.
REASONS FOR DENYING THE PETITION
The Ninth Circuit’s decision below correctly
applied the Fourth Amendment and California law.
Its decision creates no circuit or other split, and there
is no other basis for certiorari.
I.

The Ninth Circuit’s narrow and fact-bound
decision
correctly
applies
Fourth
Amendment principles and presents no
issue for certiorari

The Ninth Circuit’s Fourth Amendment holding
below was narrow. It involved no question regarding
the lawfulness of a warrantless home entry or entry
onto any other property. It involved no warrantless
search or comparable invasion of personal privacy.
The decision considered only the reasonableness of a
particular seizure: the seizure of guns in conjunction
with a lawful mental health detention.

14
Looking to the particular factual circumstances
before, during, and after police officers’ detention of
Edward on account of an acute mental health crisis,
the court held that the immediate seizure of weapons
in Edward’s household was reasonable. The court
reaffirmed the default presumption that police
officers must obtain a warrant before seizing
property, even when undertaking a community
caretaking function. Id. at A23. The court explored
the boundaries of that presumption by looking to
precedents
involving
warrantless
communitycaretaking seizures, and it distilled from them the
basic rule that such seizures are permissible only in
response to an urgent public safety need. Id. at A23–
A26.
Having identified the correct legal principles
governing the issue, the court then did what is the
role of a court of first review to do: it applied those
general principles to the particular facts before it.
The court concluded based on those facts that the
officers’ warrantless seizure of the guns Edward had
possessed or controlled, and could imminently again
possess or control, was justified to forestall an urgent
danger. Id. at A30.
The court did not hold that the Fourth
Amendment authorizes officers to seize firearms
without a warrant in all mental health scenarios.
Indeed, the court did not speak to how the legal
principles it identified might apply in the universe of
other factual situations that might present
themselves in other cases. And lest there were any
doubt that its decision was fact-specific, the court’s
final word on the subject was to emphasize that its

15
holding was “limited to the particular circumstances”
before it. Id. at A31.
A. Petitioners’ disagreement with the Ninth
Circuit’s application of unchallenged legal
principles does not warrant certiorari
1. Petitioners’ principal basis for seeking review is
their dissatisfaction with the Ninth Circuit’s Fourth
Amendment holding. But Petitioners do not
challenge that holding as it states the governing
Fourth Amendment law. They challenge only the
application of that law to the facts of this case. That
is, Petitioners do not disagree with the Ninth Circuit
that the Fourth Amendment permits the warrantless
seizure of firearms when there is an urgent publicsafety reason for that seizure. They simply do not
think things were quite urgent enough in this
particular case. Pet. 9–10.
For one thing, Petitioners are wrong in suggesting
that police officers faced no urgent public-safety
considerations when they seized weapons from the
Rodriguez home. As the Ninth Circuit observed,
Edward was an unstable and dangerous man, and
police officers had no way of knowing when he would
return to the household following his mental health
evaluation. Given that prospect, and in light of the
facts and history known to the officers—facts the
state trial court and federal district court
conclusively found and that Petitioners did not
dispute, Pet. App. A5–A6, E12—it would not have
been reasonable for officers to forego taking the

16
weapons into custody for the purpose of separately
obtaining a seizure-only warrant.
In any event, Petitioners’ disagreement with the
Ninth Circuit’s application of law to the facts is not a
basis for certiorari. This Court is not a court of
simple error correction. See S. Ct. R. 10 (certiorari is
“rarely granted when the asserted error” is
“misapplication of a properly stated rule of law”);
Boag v. MacDougall, 454 U.S. 364, 368 (1982)
(Rehnquist, J., dissenting) (“[T]his Court is not a
forum for the correction of errors.”) (citing Magnum
Imp. Co. v. Coty, 262 U.S. 159, 163 (1923)).
Petitioners’ implicit concession that the Ninth Circuit
correctly stated the constitutional principles
governing its inquiry is basis alone to deny their
petition.
The concession, moreover, is warranted. This
Court’s decision in Cady v. Dombrowski, 413 U.S. 433
(1973), stands for exactly the proposition that police
officers may constitutionally seize firearms without a
warrant when there is a pressing public-safety
reason for them to do so. Indeed, Cady is in many
respects materially similar to this case.
The Court there held that police officers did not
violate the Fourth Amendment when they seized a
firearm from the locked trunk of a car. Id. at 446.
The officers had no warrant to open the trunk or
seize its contents, but they had good reason to believe
a firearm was inside, and the car was in an
unguarded lot where members of the public could
access it. Id. at 437. The Court concluded that the
officers’ warrantless search and seizure in the course
of fulfilling their “community caretaking functions”
was reasonable because they were responding to an

17
“immediate . . . concern for the safety of the general
public.” Id. at 441, 446. That the officers could have
gotten a warrant before opening the trunk was
immaterial, because other considerations—such as
diminished privacy expectations and the communitycaretaking purpose of the police activity—made the
search and seizure reasonable. See id. at 447 (“[T]hat
the” officers could have accomplished their objectives
“by ‘less intrusive’ means does not, by itself, render
the search unreasonable.”).
Remarkably, Petitioners do not even mention
Cady, even as they petition this Court to review an
application of the community-caretaking doctrine
that case engendered. Instead, Petitioners invoke
uncontroversial axioms about the importance of the
Fourth Amendment’s warrant requirement and then
complain that the Ninth Circuit did not give due
regard to that requirement in its decision. Pet. 12–
13. But even that vague complaint is misplaced.
2. The Ninth Circuit began its entire Fourth
Amendment analysis by specifying that warrantless
seizures are “per se unreasonable” subject only to
“limited exceptions.” Pet. App. A23. The court
reaffirmed that this baseline presumption applies in
the “community caretaking” context, then bolstered
that statement with citation to circuit precedent in
which the court declined to approve a warrantless
“community caretaking” search. Id. (citing United
States v. Erickson, 991 F.2d 529, 531–32 (9th Cir.
1993) (holding that the “community caretaking
function . . . cannot itself justify a warrantless
search”)).
It was only after these various statements
recognizing the importance of the Fourth

18
Amendment’s general warrant requirement that the
court held the particular seizure at issue fell within
an exception to the requirement in light of the urgent
public safety considerations officers faced. This was
not a “blanket exception” to the general warrant
requirement permitting “a search for firearms.” Am.
Br. 8. It was the opposite—a fact-specific application
of the public-safety exception recognized in Cady to
one particular seizure. Again, Petitioners do not
even contest the operative Fourth Amendment
principle. Their complaint about the Ninth Circuit’s
application of it to these facts does not evince a
failure by the court to respect the Fourth
Amendment’s warrant requirement.
3. Petitioners misstate matters when they assert
that the Ninth Circuit “placed the burden on
Petitioners to prove” telephonic warrants were
available. Pet. 13. The Ninth Circuit did no such
thing. The court made clear that the burden for
establishing an exception to the Fourth Amendment’s
warrant requirement lay with the City. Pet. App.
A24–A25 (with “exceptions to the warrant
requirement . . . the government bear[s] the burden
of showing that the search at issue meets [the
applicable]
parameters”)
(internal
quotations
omitted)). The issue of “telephonic warrants” only
arose when Petitioners’ counsel contended at oral
argument that officers in San Jose can get such
warrants quickly, and the court observed that there
was no evidence in the record to support that specific
contention. Id. at A31. That anodyne observation
about the need for proper record evidence to support
an argument on an appeal from summary judgment
hardly constitutes impermissible burden-shifting.

19

B. The Ninth Circuit’s decision does not
conflict with California Supreme Court
precedent and is consistent with every
case to decide a similar issue
1. Petitioners also argue that the Ninth Circuit’s
Fourth Amendment holding conflicts with that of the
California Supreme Court in People v. Ovieda, 7 Cal.
5th. 1034 (Cal. 2019). Pet. 10–11. Not so. The
question presented in Ovieda was whether “a
nonemergency community caretaking exception”
could authorize a warrantless home entry and search
under the particular circumstances before the court.
Ovieda, 7 Cal. 5th at 1044 (emphasis in original). The
court answered that question in the negative, holding
that the search violated the Fourth Amendment
because (1) individual “privacy expectations are most
heightened” in the home; and (2) the officers faced no
emergency or other exigency necessitating entry into
the home to conduct the search. See id. at 1049–53.
The court emphasized that it was considering
invasion of the home and a “nonemergency”
community-caretaking seizure at the outset and
repeatedly throughout its opinion. See id. at 1044,
1048, 1050.
The Ninth Circuit’s decision here, by contrast,
involved no challenged home entry (or any other
search implicating privacy interests, for that matter),
and the entire premise of the court’s Fourth
Amendment holding was that officers did face urgent
circumstances necessitating the immediate seizure of
weapons. In fact, the Ninth Circuit favorably cited
two federal companions to Ovieda—the Ninth

20
Circuit’s Erickson, 991 F.2d at 531–32, and the D.C.
Circuit’s Corrigan v. District of Columbia, 841 F.3d
1022 (D.C. Cir. 2016)—both of which echo Ovieda’s
holding that warrantless home entries in the absence
of a sufficiently imminent threat are not justified
under the community caretaking exception. See Pet.
App. A24, A28.
Like the court in Ovieda, the panels in Erickson
and Corrigan emphasized the heightened privacy
interest in the home. Erickson, 991 F.2d at 532 (“The
warrantless search of a private residence strikes at
the heart of the Fourth Amendment’s protections.”);
Corrigan, 841 F.3d at 365 (“[P]hysical entry of the
home is the chief evil” against which the Fourth
Amendment protects). And both courts likewise
emphasized the lack of urgency or “exigent
circumstances” as the basis for declining to apply the
community-caretaking exception to the facts before
them. Erickson, 991 F.2d at 533 (absence of exigency
precluded warrantless home entry); Corrigan, 841
F.3d at 367 (“[T]here was no objectively reasonable
factual basis for [officers] to believe an imminently
dangerous hazard” necessitated home entry).
The Ninth Circuit’s incorporation of these
decisions into its holding here, along with its
repeated observations that warrantless seizures
require the very same emergency circumstances
Ovieda found lacking, belies Petitioners’ claim that
the decisions conflict. On the contrary, the two
decisions agree about the core legal principles that
govern the Fourth Amendment analysis. They differ
in outcome only because they apply those common
legal principles to vastly different facts.

21
2. Contrasted against the non-urgent, warrantless
home entries held unconstitutional in Ovieda and its
federal analogs are two circuit decisions upholding
warrantless weapons seizures under circumstances
very similar to those here: Caniglia v. Strom, 953
F.3d 112 (1st Cir. 2020) and Mora v. City of
Gaithersburg, 519 F.3d 216, 219 (4th Cir. 2008). The
first—Caniglia—is remarkable for how closely its
facts mirror those in this case.
The plaintiff there was a man who threatened
suicide in the midst of a fight with his wife by
throwing a gun onto the table and telling her to shoot
him. Caniglia, 953 F.3d at 119. The wife hid the
gun’s magazine and later called police out of fear for
her husband. Id. Responding police officers
determined that the plaintiff was dangerous and
transported him to a hospital for a mental health
evaluation. Id. at 119–20. While the plaintiff was on
the way to the hospital, the officers entered his home
and, without first getting a warrant, seized two guns
to which the plaintiff’s wife directed them. Id. at 120.
The plaintiff filed a lawsuit alleging that the officers’
warrantless seizure of his guns violated the Fourth
Amendment. Id. at 121.
The First Circuit disagreed. Citing both Cady and
the Ninth Circuit’s decision here, the court held that
the officers’ actions fell “comfortably within the ambit
of the community caretaking exception to the
warrant requirement.” Id. at 126. That exception, the
court held, permits a warrantless weapon seizure
when officers have “an objectively reasonable basis
for thinking” that an individual detained for mental
health reasons “may use [the weapons] in the
immediate future to harm himself or others.” See id.

22
at 125, 131. In concluding that the officers had such a
basis in the case before it, the court found
unpersuasive the plaintiff’s argument that his
“already [having] been removed from the scene [and
taken to the hospital] at the time of the seizure”
negated the relevant threat. Id. at 131. “There is no
evidence that the officers had any inkling when the
plaintiff would return or what his mental state might
be upon his return.” Id. Thus, it was reasonable for
the officers to conclude that “the plaintiff’s departure
had not [] dispelled the threat of harm.” Id.
In another similar case, Mora, the Fourth Circuit
upheld the warrantless seizure of forty-one weapons
from the home of a man officers knew to have
recently threatened suicide and to have said he
“could understand shooting people at work.” 519 F.3d
at 220. As in this case, the officers had detained the
man on a mental health hold and transported him to
the hospital before the seizure. See id. The court held
that the seizure was reasonable because the man’s
conduct suggested an “urgent threat,” and officers
could not be sure once the man was en route to the
hospital whether “he might return [] more quickly
than expected.” See id. at 226, 228.
3. Far from presenting a conflict with the Ninth
Circuit’s holding here, case law from California and
the federal circuit courts is in accord. As this Court
established in Cady, the Fourth Amendment permits
warrantless seizures when necessary to respond to
an urgent public safety need. The outcome of the
cases applying that standard necessarily varies
depending on their facts, especially where they
consider a home entry or comparable invasion of
privacy. But the standard in every apposite case

23
mirrors the one the Ninth Circuit applied here. There
is no split in authority. 3
The Ninth Circuit’s Fourth Amendment holding
was proper, and Petitioners have established no basis
for this Court to review it.
II. The Ninth Circuit correctly applied
California preclusion law to foreclose
Petitioners from raising the same Second
Amendment claim for the third time
Petitioners’ secondary claim in seeking certiorari
is that the Ninth Circuit erred in its application of
California preclusion law. There was no error. Before
filing her federal case, Rodriguez twice pressed the
claim that forfeiture of her property violated the
Second Amendment. Both the state trial court and
the state court of appeal expressly considered and
rejected that claim on its merits. The Ninth Circuit
accordingly held that issue preclusion barred
Petitioners from again raising the Second
Amendment claim on appeal. It is difficult to imagine
Proposed amici discuss a circuit split regarding “whether
police may consider the mere presence of a firearm” dangerous
enough to justify a detention or other Fourth Amendment
intrusion. Am Br. 12. The Ninth Circuit’s decision does not
speak to that question. The court held that the Fourth
Amendment authorized seizure of Rodriguez’s firearms not
because of their “mere presence” in her home, but because they
were in the recent and imminent possession or control of a
dangerous person experiencing a grave mental health crisis.
The proffered circuit split about whether mere firearm
possession can “empower police to conduct Fourth Amendment
warrantless searches” or detentions, id., is thus irrelevant.
3

24
a more straightforward application of basic
preclusion principles, or a less appropriate decision
for certiorari review than one by a circuit court
interpreting the law of a state within that circuit.
Yet Petitioners urge just that. In Petitioners’
telling, the Ninth Circuit’s preclusion holding is the
outgrowth of a nefarious plot to undermine the
Second Amendment. As evidence of this scheme,
Petitioners proffer that the court “contorted itself and
the law of waiver . . . by balancing Petitioners’
Second Amendment rights” against public-safety and
judicial efficiency considerations. Pet. 18. Petitioners
further protest that “[n]o honest reading” of the state
courts’ decisions could suggest those courts reached
Rodriguez’s Second Amendment claim. Id. at 14–15.
Rather, Petitioners assert, the state courts’ decisions
involved only review of “an order precluding the
return of firearms to [Rodriguez’s] husband, not
[Rodriguez] herself.” Id. at 15.
Petitioners grossly misrepresent the Ninth
Circuit’s holding, the state courts’ actions, and the
record.
1. The Ninth Circuit did not “balance Petitioners’
Second Amendment rights” against public safety or
anything else. The only “balancing” the court did was
with respect to waiver. As Petitioners repeatedly
point out, counsel representing Respondents before
the district court and in initial briefing before the
Ninth Circuit did not assert a preclusion defense.
Pet. App. A10. The court accordingly had to
determine whether it would overlook Respondents’
waiver of the defense, which under circuit precedent
meant “balancing the public and private interests” in

25
favor of preclusion against the ordinary application of
waiver rules. Id.
The “private interests” component of this circuit
balancing doctrine does not refer to a plaintiff’s
constitutional rights or whatever other substantive
law forms the basis of her claim. It refers to the
private interests served by preclusion—i.e., the
interests in “repose and in avoiding the cost of
duplicative litigation”—that tip the balance in favor
of forgiving waiver of the defense. Id. (citing
Clements v. Airport Auth. of Washoe Cty., 69 F.3d
321, 330 (9th Cir. 1995) (“The private values
protected [by preclusion] include shielding litigants
from the burden of re-litigating identical issues with
the same party, and vindicating private parties’
interest in repose.”)). The “public interest” to which
the doctrine refers is the promotion of “judicial
economy” and, in the case of issue preclusion,
avoiding the “corrosive disrespect that would follow”
among courts and the public “if the same mater were
twice litigated to inconsistent results.” Pet. App. A11.
The court held that these interests were strong
enough to overlook waiver as to issue but not claim
preclusion. Id. Rodriguez had litigated her Second
Amendment claim before two state courts, so the
Ninth Circuit concluded that revisiting the issue a
third time, with the possibility of a result at odds
with those courts, would be inimical to comity and
federalism considerations. Id. at A8–A11. The court
therefore applied issue preclusion principles based on
(and with continuous references to) the parties’ full

26
briefing on the topic to hold that Petitioners’ Second
Amendment claim was barred. 4 Id. at A10–A22.
The Ninth Circuit’s ordinary test for waiver has
nothing to do with the Second Amendment or any
other balancing of constitutional rights. Petitioners’
extensive protest against the supposed judicial
failure to accord Second Amendment rights sufficient
weight is, like their other invocations of the Second
Amendment in a case that involves no Second
Amendment issue, one long attack on a straw man.
2.
Most egregious, however, is Petitioners’
characterization of what happened in the state
courts. Petitioners assert that the state courts did not
in fact order forfeiture of Rodriguez’s weapons and
did not in fact reject her Second Amendment claim on
the merits. Pet. 19. Both assertions are demonstrably
false.
The entire premise of Rodriguez’s intervention in
the state § 8102 forfeiture proceeding was that she
had at least a community property interest in the
seized guns. Pet. App. E4. Rodriguez argued that
Proposed amici’s reference to United States v. Sineneng-Smith,
140 S. Ct. 1575 (2020), is misplaced. Am. Br. 22. Unlike in that
case, the Ninth Circuit here requested supplemental briefing
from the parties—not outside organizations—regarding
application of the Rooker-Feldman doctrine and preclusion
principles. Pet. App. A8. The court did so both to ensure it had
jurisdiction over the case and in the interest of avoiding a clash
with California state courts. The court’s holding that comity
favored application of issue preclusion after full, adversarial
briefing by the parties on the topic bears no resemblance to the
appellate “panel’s takeover of the appeal” in Sineneng-Smith.
140 S. Ct. at 1580–81 (disapproving panel decision to order
supplemental briefing and argument from amici on a
substantive constitutional claim not raised by the parties).
4

27
forfeiture was not necessary because she could lock
the guns in a safe inaccessible to Edward. Id.
Rodriguez also argued specifically that she had a
Second Amendment right to the seized guns. The
trial court was unpersuaded. Id.
The court ruled that the seizure and forfeiture of
Rodriguez’s firearms did not violate Rodriguez’s
constitutional rights. Id. at A5–A6. And given
Edward’s size and instability, and the history of
household issues, the court concluded that return of
the guns to the Rodriguez home would be dangerous.
Id. at A5, E7. The court thus ordered the guns
forfeited as to both Edward and Lori Rodriguez,
noting specifically: “So with respect to the request to
release the guns back to Ms. Rodriguez, I’m going to
deny that request.” Id. at A6, A30, E7; Supp. App. 4
(ER 75) (emphasis added).
Petitioners’ claim that the trial court’s forfeiture
order did nothing more than authorize “the interim
continued possession of the firearms by the City”
(Pet. 16.) is nonsense. There is no such “interim”
remedy under California Welfare and Institutions
Code § 8102. The statute authorizes only two
outcomes: if the trial court does not find danger, it
must order return of the weapons; if the trial court
finds danger, it must order forfeiture of the weapons,
which means the City may destroy them after the
time for the owner to arrange a transfer and sale has
expired. Cal. Welf. & Inst. Code § 8102(e)–(h). To
stop the forfeiture § 8102 requires was, indeed, the
whole reason Rodriguez intervened in that
proceeding to contest the danger finding and press
her Second Amendment claim. It is disingenuous for
Petitioners to suggest otherwise here.

28
Also disingenuous is Petitioners’ representation
that the state appellate court held merely that
Rodriguez “had not established a [Second
Amendment] violation because the . . . claim was not
ripe.” Pet. 15. Again, the whole point of Rodriguez’s
appeal to that court was to try having the forfeiture
order vacated, based principally on her Second
Amendment claim. Pet. App. E14 (“Lori’s chief
contention on appeal is that the trial court’s
[forfeiture] order . . . violates her Second Amendment
right to keep and bear arms . . . .”). The court did not
defer or otherwise reserve holding on that claim. It
expressly rejected it. It held that forfeiture did not
impair Rodriguez’s ability to keep or bear arms and
therefore affirmed.
Petitioners’ continued assertion that California
Penal Code § 33850 et seq. somehow negated the trial
court’s forfeiture order—and thus constituted a
“change in the applicable legal context” for preclusion
purposes, Pet. 16—misapprehends both § 33850 and
the nature of California forfeiture proceedings. As
the Ninth Circuit recognized, the provisions of
§ 33850 et seq. create not entitlements but procedural
obligations. Pet. App. B3. They require law
enforcement agencies to undertake certain steps
before they may release firearms in their custody to a
person otherwise legally entitled to them. See Cal.
Penal Code § 33855 (2019) (“A law enforcement
agency . . . that has taken custody of any firearm
shall not return the firearm to any individual unless
the following requirements are satisfied . . . .”). So,
for example, if a police department has a gun in its
custody from a past case investigation, it must
require the owner of that gun to undergo a

29
background check and affirm eligibility to possess
firearms before the department may give the gun
back. See Cal. Penal Code § 33850 (2019); Cal. Penal
Code § 33865 (2019).
These requirements have nothing to do with, and
cannot affect, whether a person has a possessory
ownership interest in the guns in the first place.
Indeed, the statute’s provisions expressly recognize
that the “legal owner” of a firearm may be ineligible
to possess a weapon in law-enforcement custody, in
which case they specify the protocol for transfer and
sale of the weapon. Cal. Penal Code § 33870 (2019)
(providing that a “legal owner” of a firearm who is
“prohibited from possessi[ng]” it “shall be entitled to
sell or transfer it”).
What all this means is that § 33850 et seq. is
irrelevant in the § 8102 context. Because the state
trial court granted the City’s § 8102 forfeiture
petition as to the particular guns officers seized,
Rodriguez no longer had a possessory interest in
them, so her ability to demonstrate compliance with
§ 33850 et seq. no more entitled her to the guns than
it would a stranger off the street who demonstrated
the same. See Cal. Penal Code § 33800(c) (2012)
(“Nothing in this section is intended to displace any
existing law regarding the seizure of firearms.”).
Petitioners make much of the fact that the state
appellate court discussed § 33850 in its decision
affirming the trial court. But that discussion arose
only as a final, ancillary reason for rejecting
Rodriguez’s Second Amendment claim. The court
first listed the “several reasons” why the Second
Amendment claim failed, including that the
forfeiture order did not impair Rodriguez’s ability to

30
acquire or possess firearms generally and that there
was no Second Amendment right under this Court’s
case law to own “particular firearms.” Pet. App. E15–
E17. The court then separately considered whether
§ 33850 et seq. had any “impact on [Rodriguez’s]
Second Amendment claim.” Id. at E17. The court
concluded it did not because Rodriguez had not
sought return of the firearms at issue or even made
the claim that she was prohibited from doing so. Id.
at E17–E20.
The court’s conclusion was, in other words, simply
that § 33850 et seq. could not affect its rejection of
Rodriguez’s Second Amendment claim. That
conclusion hardly transmuted the provisions of
§ 33850 et seq. from a list of procedural obligations on
law enforcement into a statutory scheme creating
new property rights, or one reviving property rights
already extinguished by judicial decree. Hence the
appellate court’s disposition affirming (not reversing
or vacating) the trial court’s order not to return the
guns to Rodriguez. Pet. App. E21.
3. Petitioners’ comparison of § 8102 forfeiture
proceedings to the “Catch-22 of forced state-court
adjudication” disapproved in Knick v. Township of
Scott, 139 S. Ct. 2162 (2019), is inapt. Pet. 17. Unlike
in the inverse condemnation context, no rule required
Rodriguez affirmatively to “bring[] [a] state lawsuit”
as a prerequisite to any § 1983 claim. Cf. Knick, 139
S. Ct. at 2172–73. Rather, under California’s § 8102,
it is “the government [that] initiates proceedings” to
forfeit the relevant property. See id. at 2168, 2172–73
(observing that “[i]nverse condemnation stands in
contrast to direct condemnation,” because the
government initiates the latter and a plaintiff can

31
later attack it in federal court “without first bringing
any sort of state lawsuit”).
A person contesting § 8102 forfeiture on federal
constitutional grounds may have to raise the claim
defensively in the state § 8102 proceedings in lieu of
a separate § 1983 action in federal court. Pet. 17. But
that is true of any person against whom the state
initiates criminal or administrative enforcement
proceedings. See Heck v. Humphrey, 512 U.S. 477,
486–87 (1994) (barring § 1983 claims that collaterally
undermine a state conviction absent exhaustion of
state judicial remedies); Younger v. Harris, 401 U.S.
37, 49 (1971) (prohibiting federal interference with a
pending state criminal proceeding); Huffman v.
Pursue, Ltd., 420 U.S. 592, 604 (1975) (same in other
proceedings); Ohio Civil Rights Comm’n v. Dayton
Christian Sch., Inc., 477 U.S. 619, 627 (1986) (same).
Far from creating an impermissible Catch-22, that is
the anticipated and proper working of the
Madisonian Compromise. See Haywood v. Drown,
556 U.S. 729, 746 (2009) (Thomas, J., dissenting).
And nothing prevented Rodriguez from seeking
review of the state courts’ rejection of her Second
Amendment claim in this Court. 28 U.S.C. § 1257
(1988).
The Ninth Circuit properly applied California
preclusion principles in declining to weigh in on a
Second Amendment claim that Rodriguez had
already twice litigated in state courts. The court’s
preclusion holding presents no question for certiorari.

32
III. This case involves no Second Amendment
issue for the Court to review
Petitioners’ last-ditch argument is that the Court
should grant review to “correct the Ninth Circuit’s
circumvention of Second Amendment protections.”
Pet. 20. The Ninth Circuit did not circumvent
anything, so there is nothing to correct. Petitioners’
claim otherwise is based on the outlandish
accusation, laced throughout their petition, that the
jurists of the large and variegated Ninth Circuit have
a particular proclivity to violate the law whenever
they have occasion to consider a Second Amendment
issue.
Were that true, one would think the panel here
would have taken the opportunity to create new
“anti-gun” precedent rather than declining to reach
Petitioners’ Second Amendment claim on preclusion
grounds. This case certainly presented an easy
opportunity to do so, for despite Petitioners’
undeveloped assertions about the “obvious” merit to
their Second Amendment argument (Pet. 2, 20, 21),
the argument is in fact borderline frivolous. It
amounts to the claim that an otherwise lawful
government
forfeiture
violates
the
Second
Amendment whenever the property forfeited consists
of guns—notwithstanding that the forfeiture does
nothing whatever to impair the previous owner’s
right to buy, possess, or use firearms, and
notwithstanding that the owner may recover the full
market value of the guns through their transfer and
sale. See Cal. Welf. & Inst. Code § 8102(h).
But a forfeiture no more violates the Second
Amendment because the property forfeited is a gun

33
than it violates the First Amendment because the
property forfeited is a book or a painting. If the
government has lawful authority to effect the
forfeiture and observes the requirements of due
process in so doing, it has complied with the
Constitution. See Bennis v. Michigan, 516 U.S. 442,
446 (1996) (government forfeiture of innocent owner’s
property
based
on
third-party
conduct
is
constitutional so long as there are adequate
procedures in place to prevent
erroneous
deprivation). The particular property involved in the
lawful forfeiture is constitutionally irrelevant.
California law—specifically, § 8102—authorized
forfeiture of Rodriguez’s weapons here because they
were associated with a dangerous mental health
episode. Petitioners do not challenge § 8102 as
unconstitutional or otherwise unlawful, and the
procedures that accompany a forfeiture under the
statute are more than adequate to comply with due
process. 5 The forfeiture of Rodriguez’s property was
Unlike the law at issue in Panzella v. Sposato, 813 F.3d 210
(2d Cir. 2017)—a due process case Petitioners cite, inappositely,
in support of the claim that the forfeiture here violated the
Second Amendment (Pet. 20)—§ 8102 requires the immediate
return of weapons unless the city that seized them affirmatively
initiates forfeiture proceedings and proves danger at an
adversarial hearing. Cf. Panzella, 813 F.3d at 218 (holding that
a New York weapon forfeiture law violated due process where it
“place[d] the burden on the person whose property was taken”
to initiate proceedings and did not provide for any hearing
procedures). The statute therefore comports with due process.
See People v. One Ruger .22-Caliber Pistol, 84 Cal. App. 4th 310,
313–14 (Cal. Ct. App. 2000) (upholding § 8102 against due
process challenge).
5

34
thus constitutional. If anything, then, the Ninth
Circuit’s declining to use this opportunity to hold
that the City’s forfeiture process did not violate the
Second Amendment (as did the five judges who
considered the question before Petitioners’ appeal)
bespeaks judicial restraint, not impropriety.
In any event, concern about the direction of Second
Amendment jurisprudence in other cases would not
support the notion that the Court should review a
case that does not develop or affect that
jurisprudence. Petitioners adduce no precedent in
which this Court has granted a certiorari petition out
of concern for some particular issue in a case that
involves no holding on that issue. Certainly there is
no occasion for the Court to undertake that
anomalous measure here, where the undecided
Second Amendment issue is as anemic as the one
Petitioners offer.
Petitioners suggest alternatively that the Court
hold this case until it decides New York State Rifle &
Pistol Ass’n v. City of New York, 140 S. Ct. 1525
(2020). The Court has since vacated that case as
moot. See id. at 1526. In any event, even if the Court
had reached a decision in the case, it is unclear what
possible relevance New York State’s holding about a
state law prohibiting the transport of firearms could
have had to a case involving an unreached Second
Amendment claim regarding a mental-health
forfeiture of dangerous weapons. Neither New York
State nor any other case in which a party has
petitioned for certiorari on Second Amendment
grounds presents an issue that could inform the
questions presented in this non-Second-Amendment
case.

35
CONCLUSION
Petitioners present no basis for certiorari.
Respondents respectfully request that the Court deny
their petition.

Respectfully submitted,
RICHARD DOYLE
NORA FRIMANN
MATTHEW PRITCHARD
(Counsel of Record)
Office of the City Attorney
200 E. Santa Clara Street
16th Floor
San José, CA 95113-1905
(408) 535-1900
cao.main@sanjoseca.gov
Counsel for Respondents
June 2020

SUPPLEMENTAL
APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Transcript of Proceedings in the Superior Court of
the State of California in and for the County of
Santa Clara Excerpt
(August 9, 2013) . . . . . . . . . . . . . . . . Supp. App. 1

Supp. App. 1
IN THE SUPERIOR COURT OF THE STATE OF
CALIFORNIA IN AND FOR THE COUNTY OF
SANTA CLARA
NO. 1-13-CV-241669
BEFORE THE HONORABLE PETER H.
KIRWAN, JUDGE
DEPARTMENT 8
---oOo--_____________________________
CITY OF SAN JOSE,
)
PETITIONER,
)
)
–VS–
)
)
E. RODRIGUEZ,
)
RESPONDENT. )
_____________________________ )
---oOo--REPORTER’S TRANSCRIPT OF PROCEEDINGS
AUGUST 9, 2013
---oOo--A P P E A R A N C E S:
FOR THE PLAINTIFF:

MARK VANNI
Attorney at Law

FOR THE DEFENDANT:

DONALD KILMER
Attorney at Law

Supp. App. 2
OFFICIAL COURT REPORTER:
MELISSA CRAWFORD, CSR, RPR
CSR NO. 12288
[p.23]
end of the day, is what my responsibility is, is public
safety. And that’s what guides me. And I’m not saying
I’m ignoring her Constitutional Rights or anybody
else’s rights. But at the end of the day it’s my call. I
have to determine whether it’s appropriate to release
those guns given the facts in this particular case and
the situation.
MR. KILMER: But, again, you’re going to have to
resolve the issue of what difference does it make which
guns she has in her safe. You can’t order the
confiscation of the gun safe. Quite frankly, I’m
surprised that the police didn’t confiscate the
ammunition as well because Mr. Rodriguez is also
prohibited from having ammunition. They didn’t think
it was important enough to take the ammunition.
Now if you rule against her today she can walk out
of here and into any gun store and qualify to buy a
handgun or shotgun and ten days later go pick it up
and put in that gun safe. And then the community is no
safer than if you release these particular guns.
It’s her decision, Your Honor. If she makes a
decision at some point in the future that these guns
need to be sold and “I’m going to get rid of the gun
safe,” that’s her decision. If she decides she wants to
keep one gun in her home for her safety, that’s her

Supp. App. 3
decision as well. That’s what the Constitution says.
And that’s why -THE COURT: And I don’t deny that. But that’s
really not the issue before me. The issue before me is
whether -- I can’t order her not to do something she’s
got a right to do down the road. What I can do is I can
prevent those guns from being
[p.24]
returned to the home.
MR. KILMER: Okay. So what’s to prevent -- I mean,
Your Honor, how much sense does it make for you to
order the guns sold and they go on consignment sale in
the gun store and then she turns around and goes back
and buys them?
THE COURT: Yeah. And I don’t know the answer to
that question.
MR. KILMER: The answer is that you can’t prevent
that.
THE COURT: Yeah. All right. Anything further?
MR. VANNI: No, Your Honor.
MR. KILMER: Submitted, Your Honor.
THE COURT: All right. So, I’m prepared to issue
my decision. I’m not going to order the release of the
guns to the respondent. I don’t think it’s appropriate
under the circumstances. I appreciate all the comments
that have been made. It’s an interesting issue. I spent
some time with this ahead of time. At the end of the

Supp. App. 4
day there’s enough concern on my part about the public
safety that I’m not going to do that.
With that said, I think there are viable alternatives
that need to be explored. This is the community
possession of the respondent and whether it’s by sale or
release to a separate place. I’m going to let you folks
work that out. So with respect to the request to release
the guns back to Ms. Rodriguez, I’m going to deny that
request, all right? I’m going to ask that the City
prepare the order.
MR. KILMER: And may we have a stay on that
decision for 60 days, Your Honor?
[p.25]
THE COURT: And tell me why.
MR. KILMER: I respectfully disagree with the
Court’s conclusion. I’d like to take it up with the Court
of Appeal and the Federal Court.
THE COURT: I think you have to ask for the stay
through the Court of Appeal though. I mean the City is
going to hold the guns anyway. I’m not sure what affect
the stay would have here.
MR. KILMER: The problem is, Your Honor, at this
point in time the government can’t be charging my
client storage fees or anything like that. Once you order
disposition of the guns and they have to keep them in
their evidence room they can start charging her fees for
storage. I just don’t want that to happen while we
resolve this.
THE COURT: Do you want to comment on that?

Supp. App. 5
MR. VANNI: I believe the City can charge and
sometimes does charge for the storage of weapons in
that circumstance. I can’t promise that the police
department won’t do that, especially after a court order
from this Court. So in that mind -- in that vein it’s a
substantial likelihood that Ms. Rodriguez might be
charged for storage of those weapons.
THE COURT: So are you opposing the request for
stay?
MR. VANNI: On the record I’ll oppose it, yes, Your
Honor. I do think the Court’s decision is a valid
decision and that returning the weapons will be a likely
danger to the community at large.
THE COURT: I think -- I’m going to deny the stay
without prejudice. I think probably the way to do this
is if,
[p.26]
in fact, you appeal this, Mr. Kilmer, you can request
that the Court of Appeal issue a stay of the order,
okay?
MR. KILMER: Thank you, Your Honor. THE
COURT: All right. Thank you.
(Whereupon, this matter adjourned.)
---oOo---

Supp. App. 6
[p.27]
STATE OF CALIFORNIA
COUNTY OF SANTA CLARA

)
)
)

ss.

I, MELISSA CRAWFORD, HEREBY CERTIFY:
That I was the duly appointed, qualified shorthand
reporter of said court in the above-entitled action taken
on the above-entitled date; that I reported the same in
machine shorthand and thereafter had the same
transcribed through computer-aided transcription as
herein appears; and that the foregoing typewritten
pages contain a true and correct transcript of the
proceedings had in said matter at said time and place
to the best of my ability.
I further certify that I have complied with CCP
237(a)(2) in that all personal juror identifying
information has been redacted, if applicable.
DATED: OCTOBER 17, 2013
_________________________________
MELISSA CRAWFORD, CSR, RPR
CSR No. 12288
ATTENTION:
CALIFORNIA GOVERNMENT CODE
SECTION 69954(D) STATES:
“ANY COURT, PARTY, OR PERSON WHO HAS
PURCHASED A TRANSCRIPT MAY, WITHOUT
PAYING A FURTHER FEE TO THE REPORTER,
REPRODUCE A COPY OR PORTION THEREOF AS

Supp. App. 7
AN EXHIBIT PURSUANT TO COURT ORDER OR
RULE, OR FOR INTERNAL USE, BUT SHALL NOT
OTHERWISE PROVIDE OR SELL A COPY OR
COPIES TO ANY OTHER PARTY OR PERSON.”

